2®zM25lQ
IN THE
SUPREME COURT OF THE UNITED STATES
i

CHESTER ALAN STAPLES

(Your Name)

vs.
FIFTH CIRCUIT

— PETITIONER

FILED
JUN 2 6 2020
-REshlli§@tp2Ll

ON PETITION FOR A WRIT OF CERTIORARI TO

UNITED STATES DISTICT COURT / EASTERN DISTRICT OF TEXAS

(NAME OF COURT THAT LAST RULED ON MERITS OF YOUR CASE)
PETITION FOR WRIT OF CERTIORARI

CHE5TER ALAN STAPLES #01853049

(Your Name)
264 FM 347B

"Estelle Unit"

(Address)
Huntsville, TX. 77320

(City, State, Zip Code)
N/A

(Phone Number)
i

QUESTION(S) PRESENTED
Did the UNITED STATES COURT OF APPEALS FOR THE FIFTH CIRCUIT err
in denying my motion (Staples) for a Certificate of Appealability?

II

LIST OF PARTIES

[ ] All parties appear in the caption of the case on the cover page.
[xl All parties do not appear in the caption of the case on the cover page. A list of
all parties to the proceeding in the court whose judgment is the subject of this
petition is as follows:
Court of Criminal Appeals of Texas
■P.0. BOX 1 2308, Capitol Station
Austin, Texas 78711
CCA No. UR-85,187-01
Trial Court Case No. 3 0 9 7 9 - A

Court of Appeals
Twelfth Court of Appeals District of Texas
Tyler, Texas
No. 12-13-00126-CR

III

TABLE OF AUTHORTWES Om

CASES
Barefoot v. Estelle, 463 U.S.8 80,S?3'T-:
Flieger v .

Delo, 16 F3d 878,883(8th Cir. *

Miller-El v.

Cocker 1 ,

537 U.S.

322,33S

TzZZJ

Fuller v. Oohnson, 114 F3d 491,495 (5th Zlr*
Buxton v. Collins, 925 F2d 816,819 (5th Cir. ' ?
Slack v. McDaniel, 529-U.S. 473,483-484 (22ZZ

STATUTES AND RULES
A petitioner is entitled to a certificate of
appealability if -e -makes a substantial showing of the denial of
a constitutional rlz-r,.
U.S.C. § 2253(c)(2) . The U.S. Supreme Court in Barefoot v.
Estelle,
463 U.S. 880,893 (1983), held this
means that the appellant need set
show that he would prevail on merits, but demonstrate that the issues
are debatable among jurists of reason;

that the court could resolve

the issues-in a different manner; or that the questions are adequate
4

to deserve encouragement to proceed further.

OTHER
NOME

IV

TABLE OF CONTENTS
1

OPINIONS BELOW

2

JURISDICTION
CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

3

STATEMENT OF THE CASE

4

REASONS FOR GRANTING THE WRIT

5

CONCLUSION

6

INDEX TO APPENDICES
APPENDIX A

ORDER From United States Court of Appeals

APPENDIX B

ORDER OF DISMISSAL From the United States District Ct.

APPENDIX C

V

REPORT AND RECOMMENDATION
OF THE UNITED STATES MAGISTRATE 3UDGE

APPENDIX D

Denial of rehearing

APPENDIX E

Denial from Court of Criminal Appeals, with
dessenting opinion

APPENDIX F

Copy of Request for Certificate of Appealability
with Brief in Support

APPENDIX G

Copies of documents verifying allegations presented
in Request for Certificate of Appealability

APPENDIX H

Oudgment; Twelfth Court of Appeals District of Texas

APPENDIX I

Denial of timely filed petition for rehearing
V

IN THE
SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI
Petitioner respectfully prays that a writ of certiorari issue to review the judgment below.
OPINIONS BELOW
[x3 For cases from federal courts:
The opinion of the United States court of appeals appears at Appendix
the petition and is

fl

to

[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[ X] is unpublished.
The opinion of the United States district court appears at Appendix
the petition and is

8

[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[ x! is unpublished.
[ x] For cases from state courts:
The opinion of the highest state court to review the merits appears at
Appendix__ I__to the petition and is
[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[ x| is unpublished.
The opinion of the tuelfth court of appeals district tx court
appears at Appendix__H__ to the petition and is
[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[ xi is unpublished.
1.

to

JURISDICTION

[x] For eases from federal courts:
The date on which the United States Court of Appeals decided my case
was 05/04/2020
[ ] No petition for rehearing was timely filed in my case.
[ ] A timely petition for rehearing was denied by the United States Court of
Appeals on the following date: 05/26/2020
, and a copy of the
order denying rehearing appears at Appendix _Q
[ ] An extension of time to file the petition for a writ of certiorari was granted
to and including______
(date) on
(date)
in Application No.__ A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1254(1).
Cases in the courts of appeals may be reviewed by the
Supreme Court by the following methods:
(1) By writ of certiorari granted upon the petition
of any party to any civil or criminal case, before
or after rendition of judgment or decree.
Therefore this Court has jurisdiction in this proceeding.
CA5 denied request for C 0 A 5 / 4 / 2 0 2 0 .: / De nied . rehearing on - 5/26/2 020 '

[ 3 For cases from state courts:

The date on which the highest state court decided my case was n?/7s/?mg
B
A copy of that decision appears at Appendix
[ 3 A timely petition for rehearing was thereafter denied on the following date:
, and a copy of the order denying rehearing
appears at Appendix
[ 3 An extension of time to file the petition for a writ of certiorari was granted
to and including____
(date) on
(date) in
Application No.__ A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1267(a).

2

.

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

FIFTH

SIXTH, AND FOURTEENTH HAVE BEEN VIOLATED. THESE ARE RIGHTS

GUARANTEED BY THE CONSTITUTION OF THE UNITED STATES OF AMERICA.
It is plainly stated in the Constitution that every person is to
have a fair trial, and effective assistance of counsel.
I believe that I, Staples, have adequately shown that I hava not
received a fair trial, or effective assistance of counsel. That
these issues are debatable among jurist of reason.

.Y

3

STATEMENT OF THE CASE
I, Staples, petitioner pro se have presented to the Courts issues
that have not been resolved properly.
My initial Writ of Habeas Corpus addressed to the convicting Court
was transversed to the Court of Criminal Appeals of Texas without
Finding of Facts, Conclusion of Laws, or any Recommendation.
The Court of Criminal Appeals denied the "Writ" without written
order.
I filed another petition under U. S. C. 28 § 2254. This Court also
dismissed my petition, with prejudice and recommended'that the
Certificate of Appealabilty be denied.
The Fifth Circuit dismissed my application for a C.O.A.

ft

4

REASONS FOR GRANTING THE PETITION
I have bean denied rights guaranteed by the Constitution. I am ask­
ing this Court to grant the petition for writ of Certiorari so that
I may have an apportuity to present to the Courts more adequately
the issues presented previously. I am not an attorney and I have to
the best of my ability pursued post-conviction relief. I am convict­
ed of murder. Never denied killing the man. But was denied self-de­
fense, due to jury instruction that allowed the jury to convict on
a theory not presented to the grand jury for indictment. I may be a
little slow when it comes to comprehension of the law and the lang­
uage to be used when presenting issues to thB Courts. I contend that
my Constitutional rights have been violated. I ask this Court to give
me a chance to present the issues that have been previously ignored,
or ruled on erroneously.

5

CONCLUSION

The petition for a writ of certiorari should be granted.

Respectfully submitted,

Date:

t

1 C t lo20

V

6

